Department of Homeland Security
   Ofﬁce of Inspector General

                Letter Report: 


   Maryland State Police Use of DHS Grants





OIG-09-04                          October 2008
                                                             Office of Inspector General

                                                             U.S. Department of Homeland Security
                                                             Washington, DC 20528




                                     October 24, 2008


MEMORANDUM FOR: 	            The Honorable R. David Paulison
                             Administrator
                             Federal Emergency Management Agency


FROM: 	                      Richard L. Skinner
                             Inspector General


SUBJECT:	                     Maryland State Police Use of Department of Homeland
                              Security Grants


As requested by Secretary Chertoff, my office examined the Federal Emergency
Management Agency (FEMA) preparedness grants awarded to the Maryland State Police
from FYs 2003 to 2005. The objective of our examination was to determine whether
Maryland State Police complied with federal regulations and FEMA guidelines in the use
of these funds. Appendix A provides further details on our objective, scope, and
methodology.

Maryland State Police complied with limitations and requirements in the use of FEMA
preparedness grant awards from FYs 2003 to 2005. During this time, the Maryland
Emergency Management Agency and other Maryland recipients received approximately
$161 million in FEMA preparedness grants. Of this amount, the Maryland Emergency
Management Agency provided approximately $5 million in preparedness grant awards to
Maryland State Police as a subrecipient. Maryland State Police made no unauthorized
purchases using these funds and, along with the Maryland Emergency Management
Agency, provided sufficient documentation to support all itemized expenditures. We are
making no recommendations in this report.

We discussed the results of our examination with FEMA officials who concurred and
provided written comments, which are attached in Appendix B. We also discussed the
results with the Maryland Emergency Management Agency and Maryland State Police
and they also concurred. Should you have any questions, please call me, or your staff
may contact Anne L. Richards, Deputy Assistant Inspector General for Audits, at (202)
254-4100.


            Maryland State Police Use of Department of Homeland Security Grants 


                                             1

Background

Since 2002, the Department of Homeland Security (DHS) has distributed more than $19
billion in preparedness grants to enhance the nation’s ability to prevent, prepare for,
protect against, and respond to natural disasters, acts of terrorism and other man-made
disasters. The Post-Katrina Emergency Management Reform Act of 2006, Public Law
109–295, places the responsibility for allocating and managing these grants with FEMA.

FEMA administers these grants through its Grant Programs Directorate. Initially, DHS
administered these grants through the Office of Domestic Preparedness, which
transferred from the Department of Justice to DHS in March 2003. The Office of
Domestic Preparedness was subsequently consolidated into the Office of State and Local
Government Coordination and Preparedness. This office became the Office of Grants
and Training, which subsequently became part of FEMA.

The Maryland Emergency Management Agency is the administrative agency appointed
by the governor to administer FEMA preparedness grants. These preparedness grants are
awarded under FEMA’s Homeland Security Grant Program and Infrastructure Protection
Activities grants programs. Homeland Security Grant Program awards grants to the State
of Maryland. The Maryland Emergency Management Agency is responsible for
managing these grant awards according to established federal guidelines and administers
subgrants to local, regional, and other state government agencies in Maryland.

The grant guidelines for the DHS State Homeland Security Grants allowed grant
recipients to use grant funds for costs directly associated with homeland security
preparedness activities such as training, salaries, overtime pay, contract services,
planning, administration, travel, and equipment purchases. The guidelines prohibit the
use of grant funds for general-use equipment and activities unrelated to homeland
security including general planning, administrative and personnel costs, expenditures
prior to the award start date of the grant, and expenses that were otherwise budgeted for
state or local funds.

In recent months, there was general concern that the Maryland State Police might have
inappropriately used DHS grant funds to conduct specific surveillance operations. As a
result, the Secretary requested that the Office of Inspector General (OIG) review grant
awards to the Maryland State Police to determine whether grant funds were used
appropriately. The surveillance in question was funded from FYs 2003 through 2005.
We examined grant awards for this period.

Results of Audit

The Maryland State Police complied with limitations and requirements in the use of
FEMA preparedness grant awards for FYs 2003 through 2005. The Maryland
Emergency Management Agency and other Maryland recipients received approximately
$161 million in preparedness grants from FEMA. The Maryland State Police received
approximately $5 million from these awards.
            Maryland State Police Use of Department of Homeland Security Grants 


                                             2

Files maintained by the Maryland Emergency Management Agency and the Maryland
State Police showed that the Maryland Emergency Management Agency reviewed and
approved all grant fund requests from the Maryland State Police and subsequently
reviewed invoices or purchase receipts. Records also indicated that the Maryland
Emergency Management Agency effectively controlled grant drawdowns to ensure
expenditures did not exceed grant awards. Maryland State Police documentation showed
that the use of funds complied with grant requirements for each grant received. The
Maryland State Police made no unauthorized purchases using the funds. Maryland State
Police and the Maryland Emergency Management Agency provided documentation to
support itemized expenditures. In addition, the State of Maryland General Ledger Report
for the grants reviewed matched FEMA’s grant totals.

Source of Maryland State Police Grant Funds

From FYs 2003 through 2005, FEMA awarded preparedness grant funds to the Maryland
Emergency Management Agency and other state entities. The Maryland State Police
received preparedness grant funds as a subrecipient of the Maryland Emergency
Management Agency. The sources and amounts of the Maryland State Police grant
awards are shown in Table 1.




            Maryland State Police Use of Department of Homeland Security Grants 


                                             3

          Table 1: Maryland State Police Homeland Security Grant Awards
                                     FY 2003 to FY 2005
                                   Grants                               Awards
                                                                       (Rounded)
FY 2003 State Homeland Security Grant Program Parts I and
II: This program provided financial assistance for (1) the purchase
of specialized equipment to enhance the capability of state and local
agencies to prevent and respond to incidents of terrorism involving
the use of chemical, biological, radiological, nuclear, or explosive
weapons; (2) the protection of critical infrastructure and prevention
of terrorist incidents; (3) the design, development, conduct, and
evaluation of chemical, biological, radioactive, nuclear, or explosive $1,805,158
weapons exercises; (4) the design, development, and conduct of
state chemical, biological, radioactive, nuclear, or explosive
weapons training programs; and (5) the update and implementation
of each State Administrative Agency’s Homeland Security strategy.
Part II supplemented funding available through FY 2003 for the
State Homeland Security Grant Program to enhance first responder
preparedness. State Homeland Security Grant Program Part II funds
were also available to mitigate the costs of enhanced security at
critical infrastructure facilities.

FY 2004 Homeland Security Grant Program: This program
integrated the State Homeland Security Grant Program, the Law
Enforcement Terrorism Prevention Program, and the Citizen Corps
Program. Funding from this combined program was to enhance the               $2,680,600
coordination of regional efforts to prevent chemical, biological,
nuclear, explosive, and cyber attacks.
FY 2005 Homeland Security Grant Program: This program
integrated the State Homeland Security Program, the Urban Areas
Security Initiative, the Law Enforcement Terrorism Prevention
Program, the Citizen Corps Program, the Emergency Management                  $500,000
Performance Grants, and the Metropolitan Medical Response
System Program Grants.
Total                                                                        $4,985,758


Controls Over Maryland State Police Grant Funds

The Maryland Emergency Management Agency had adequate internal controls to ensure
that grant funds were spent in according to the requisite guidelines. Maryland State
Police expenditures complied with requirements in the use of FEMA preparedness grants
from FYs 2003 to 2005. The Maryland State Police did not use DHS State Homeland
Security Grant funds to conduct surveillance between FYs 2005 and 2006. The Maryland
            Maryland State Police Use of Department of Homeland Security Grants 


                                             4

State Police used the award funds to purchase equipment and services allowed under
FEMA grant guidelines. The FY 2003 funding was used to pay for specialized computer
and office equipment, personal protective equipment, and nonsurveillance security
overtime. The Maryland State Police used FY 2004 funds to purchase training and office
and radio equipment. In FY 2005, grant funding was used to pay for equipment and
contractor services.

Table 2 provides a breakdown of the grant funds spent by Maryland State Police by
expenditure type and award year.

   Table 2: Use of Maryland State Police Homeland Security Grant Expenditures
                   FY 2003 to FY 2005 (rounded to the nearest dollar)
                   Equipment      Labor      Contractor Training                       Total
                                              Services
2003 State          $1,671,540     $112,213                    $1,060                  $1,784,813
Homeland
Security
Grant
Program
Parts I & II
2004 State            $2,630,402                        $19,672          $550          $2,650,624
Homeland
Security
Grant
Program
2005                     $40,059                       $459,284          $657           $500,000
Homeland
Security
Grant
Program
Totals                $4,342,001       $112,213        $478,956        $2,267          $4,935,437

As part of our review, we evaluated the internal controls of the Maryland Emergency
Management Agency. We reviewed financial transactions, journal entries, the
memorandum of agreement between the Maryland Emergency Management Agency and
Maryland State Police, and grant expenditure approvals and supporting documentation
for expenditures under DHS State Homeland Security Grants given to Maryland State
Police from FYs 2003 to 2005. We gathered information about the program through
analysis and document reviews. We researched applicable grant guidelines and
regulations.

Grant files maintained by the Maryland Emergency Management Agency and Maryland
State Police contained itemized supporting documentation for expenses charged to
FEMA Homeland Security Grant Program awards. These expenditures complied with
the applicable grant requirements.
               Maryland State Police Use of Department of Homeland Security Grants 


                                                5

Given the results of our examination, we are making no recommendations. FEMA
officials concurred with the results of our examination presented at an exit conference on
September 18, 2008. The Maryland Emergency Management Agency officials also
concurred with our results presented at an exit conference on September 25, 2008.




            Maryland State Police Use of Department of Homeland Security Grants 


                                             6

Appendix A
Objective, Scope, and Methodology


The objective of our examination was to determine whether Maryland State Police
complied with federal regulations and FEMA guidelines in the use of FEMA
preparedness grant funds from FYs 2003 to 2005.

We performed our examination at various locations. We visited FEMA headquarters in
Washington, D.C., the Maryland Emergency Management Agency in Reisterstown,
Maryland, and the Maryland State Police in Pikesville, Maryland. Our review included
all preparedness grants awarded by FEMA to the Maryland State Police for FYs 2003 to
2005. We examined all expenditures made by the Maryland State Police under FEMA
preparedness grants to determine whether the expenditures complied with required grant
provisions.

In response to our request, FEMA provided a list of all awards given to grantees in the
State of Maryland for FYs 2003 to 2005. FEMA does not keep records of subgrantees,
which would include the Maryland State Police. However, the agency referred us to the
Maryland Emergency Management Agency grant office which does keep those records.

To determine whether the Maryland State Police used DHS State Homeland Security
grant funds to conduct surveillance, we reviewed all personnel and labor charges for the
officers involved in the surveillance of concern. We reviewed timesheets and overtime
records to determine whether DHS funds were used for salaries and overtime pay.

We performed our examination from August to September 2008 under the authority of
the Inspector General Act of 1978, as amended, and according to generally accepted
government auditing standards.

Our examination was conducted according to standards established by the American
Institute of Certified Public Accountants and, accordingly, included examining, on a test
basis, evidence supporting the Maryland State Police use of FEMA preparedness grant
funds and performing such other procedures as we considered necessary under the
circumstances.

Our examination provides a reasonable basis for our opinion. In our opinion, the activity
referred to above presents, in all material respects, Maryland State Police compliance
with FEMA grant provisions from FYs 2003 through 2005 based on provisions set forth
under FEMA Homeland Security Grant Program guidance. Had we conducted additional
audit procedures other issues might have come to our attention.




            Maryland State Police Use of Department of Homeland Security Grants 


                                             7

Appendix B
Management Response




         Maryland State Police Use of Department of Homeland Security Grants 


                                          8

Appendix C
Major Contributors to This Report



                     Office of Audits
                     Joshua Burleigh, Audit Manager
                     Stephanie Christian, Auditor in Charge
                     Jeffrey Wilson, Auditor
                     Rebecca Mogg, Auditor
                     Pamela Lokeman, Auditor
                     Gary Crownover, Auditor
                     Gary Alvino, Referencer


                     Emergency Management Oversight Audits
                     Helen White, Auditor




           Maryland State Police Use of Department of Homeland Security Grants 


                                            9

Appendix D
Report Distribution



                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretary
                      FEMA Administrator
                      Under Secretary, Management
                      Assistant Secretary for Policy
                      Assistant Secretary for Public Affairs
                      Assistant Secretary for Legislative Affairs
                      Chief Information Officer
                      Chief Information Security Officer
                      DHS Audit Liaison
                      FEMA Audit Liaison

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




           Maryland State Police Use of Department of Homeland Security Grants 


                                           10 

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4199,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
